(202) 223-7325
(202) 204-7397
kshanmugam@paulweiss.com

October 21, 2020

BY ELECTRONIC FILING
Mr. Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Goldman Sachs Group, Inc., et al. v. Arkansas Teacher Retirement
System, et. al., No. 20-222

Dear Mr. Harris:
Pursuant to the Court’s order of March 19, 2020, modifying the Court’s rules
and practices in light of COVID-19, petitioners respectfully request that distribution
of their certiorari materials be delayed from November 4, 2020, to November 17,
2020.

2
Petitioners respectfully submit that additional time to file a reply is needed
due to COVID-19, which has displaced petitioners and counsel from their respective
offices and made coordination between petitioners and counsel more difficult.
Respondents’ counsel has indicated that respondents do not object to this
proposed extension.
Yours sincerely,
Kannon K. Shanmugam
cc:

Thomas C. Goldstein, Esq.

